<html>
<title> - AN UNCLEAR ROADMAP: BURMA'S FRAGILE POLITICAL REFORMS AND GROWING ETHNIC STRIFE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                  AN UNCLEAR ROADMAP: BURMA'S FRAGILE
                     POLITICAL REFORMS AND GROWING
                             ETHNIC STRIFE

=======================================================================


                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 19, 2013

                               __________

                           Serial No. 113-81

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
82-844                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6601160926051315120e030a164805090b48">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                      STEVE CHABOT, Ohio, Chairman
DANA ROHRABACHER, California         ENI F.H. FALEOMAVAEGA, American 
MATT SALMON, Arizona                     Samoa
MO BROOKS, Alabama                   AMI BERA, California
GEORGE HOLDING, North Carolina       TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            BRAD SHERMAN, California
DOUG COLLINS, Georgia                GERALD E. CONNOLLY, Virginia
LUKE MESSER, Indiana                 WILLIAM KEATING, Massachusetts


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Tom Andrews, president, United to End Genocide.....     5
Ms. Jennifer Quigley, executive director, U.S. Campaign for Burma    16
Wakar Uddin, Ph.D., director general, The Arakan Rohingya Union..    23
Mr. Ralph L. Cwerman, president, The Humpty Dumpty Institute.....    33

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Tom Andrews: Prepared statement....................     7
Ms. Jennifer Quigley: Prepared statement.........................    19
Wakar Uddin, Ph.D.: Prepared statement...........................    25
Mr. Ralph L. Cwerman: Prepared statement.........................    36

                                APPENDIX

Hearing notice...................................................    50
Hearing minutes..................................................    51
The Honorable Steve Chabot, a Representative in Congress from the 
  State of Ohio, and chairman, Subcommittee on Asia and the 
  Pacific: Statement for the record from Ambassador Ufuk Gokcen..    52


                  AN UNCLEAR ROADMAP: BURMA'S FRAGILE
                     POLITICAL REFORMS AND GROWING
                             ETHNIC STRIFE

                              ----------                              


                      THURSDAY, SEPTEMBER 19, 2013

                       House of Representatives,

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 2 o'clock p.m., 
in room 2172 Rayburn House Office Building, Hon. Steve Chabot 
(chairman of the subcommittee) presiding.
    Mr. Chabot. Good afternoon.
    Welcome, everyone, my colleagues, and our distinguished 
witnesses to this Subcommittee on Asia and the Pacific hearing.
    The ranking member, Mr. Faleomavaega, is not able to be 
here today because he is accompanying the body of a soldier who 
was killed in Afghanistan back to American Samoa, Mr. 
Faleomavaega's district.
    Our thoughts and prayers are certainly with the family of 
First Lieutenant Jason Asotama Togi. Mr. Bera will be sitting 
in and replacing Mr. Faleomavaega this afternoon. He and I will 
be making opening statements, and other members will be 
recognized for 1 minute to make a statement if they wish to do 
so.
    We find ourselves today in an extraordinarily unusual time 
in history, one in which political changes are taking shape in 
nearly every corner of the world. As we look across the Indian 
Ocean, the beacon of hope and change in Asia, it seems 2 years 
ago, was the relatively unknown isolated country we call Burma. 
Today, nearly everyone knows about this nation in some way, and 
has heard of democracy activist Aung San Suu Kyi who sacrificed 
years of her life to improve her country's plight. In 2011, she 
testified via video before this subcommittee expressing her 
resounding hope of change for her people. Two years later, her 
wish has not yet become reality.
    The Burma we see today is at first glance much different 
than the one we knew only a few years ago. Businesses around 
the globe have rushed in, seeking a stake in Burma's economy 
and its untouched natural resources. Sanctions were lifted. 
Investors and tourists are moving across its borders. Some have 
called Burma the last Wild West of Asia, named as one of the 
top travel destinations of the year due to its white beaches, 
serene Buddhist architecture, and pristine beauty. 
Unfortunately, I'm not so sure how long that title will last.
    Countries around the world felt that they could now cross 
one more dictatorship off their list. And while Burma's sudden 
and unexpected democratic changes, which opened it to the 
world, was indeed incredible, we are realizing that all this 
hype may have been premature. Those rose-colored glasses made 
the situation look better than it truly was underneath.
    The new model for reforms in Burma is ``two steps forward, 
one step back.'' At least that's what the Obama administration 
is using--which is in considerable contrast to its overly 
optimistic depiction of reforms only a year ago. After 2 years 
of symbolic visits, appointments, grand gestures and ceremonial 
photo-ops, the tone is finally mellowing as the international 
community realizes Burma's future is filled with challenges. 
The situation there is extremely fragile and all of the reforms 
to date could be reversed, unfortunately, with very little 
effort.
    A few days ago, Aung San Suu Kyi warned the U.S. that, 
``Now it is more important than ever to look at the situation 
in Burma very objectively and not to be over optimistic and 
recognize that Burma is not yet a democracy until its 
constitution is changed.'' She also made it clear that legal 
challenges are essential to end the ethnic conflicts, including 
attacks led by Burmese Government forces against the Kachin 
community. The world needs to take note.
    The escalation of human rights abuses committed by the 
Burmese military, and the civil unrest between Burma's Buddhist 
majority and Muslim minorities, is threatening the progression 
of future political reforms in Burma. The effects of the 
surging anti-Muslim movement and ensuing violence has already 
been staggering. Over 250,000 people have been displaced, over 
10,000 homes destroyed and nearly 300 people killed. Evidence 
shows the Burmese military perpetrated some of these attacks 
directly. In other situations the military and police just 
stood by and watched the violence unfold without taking 
appropriate action. A humanitarian crisis is unfolding before 
our very eyes.
    What's more, nearly 200 political prisoners remain behind 
bars, but this does not include the nearly 1,000 Rohingya and 
200 Kachin prisoners of conscience who have been arrested and 
detained over the past year for their religion or ethnicity. 
This is unacceptable. These are actions repressive regimes take 
and use to intimidate their own people.
    How has the Obama administration reacted to the blatant 
human rights violations and unfulfilled promises? They have 
offered more rewards, deals, and concessions.
    Let's take a quick look: The administration lifted 
investment sanctions; lifted import bans; allowed Burma's 
military to observe Cobra Gold--the largest military exercise 
in the world; lifted visa bans on top Burmese politicians; 
hosted President Thein Sein at the White House in May; signed a 
trade and investment framework agreement; began the process of 
admitting Burma into the Generalized System of Preferences 
program; and most recently, initiated military-to-military 
engagement with Burma.
    This last action, in particular, comes far too soon in 
light of the military's strong influence in Burma and its 
perpetration of human rights abuses against ethnic minorities. 
Without established benchmarks, this step, in my view, is hasty 
and poses a risk of failure for the United States' entire 
engagement strategy with respect to Burma.
    It's clear that the U.S. is committed to helping Burma 
succeed, but why is the only thing this administration is doing 
is giving and then giving more?
    The engagement process needs to slow down until it becomes 
apparent that the Burmese regime intends to truly reform. I 
believe the administration needs to reassess its strategy and 
take a step back because Burma has not yet demonstrated that it 
is truly committed to reforming. Without a clear roadmap, it's 
unclear whether future reforms in Burma will be consistent with 
goals established under U.S. laws.
    I look forward to hearing from our distinguished witnesses 
today about their assessment of the political environment in 
Burma, the growing human rights abuses among ethnic groups and 
the U.S. engagement strategy with Burma.
    Now I'd like to turn to the ranking member here this 
afternoon, Mr. Bera, for an opening statement.
    Mr. Bera. Thank you, Chairman Chabot, and thank you for 
holding this important hearing to discuss Burma's ongoing 
reform efforts.
    It's an incredibly important discussion for us to have, 
particularly with--particularly with how young the democracy 
is. While we know real progress has been made, we also can't 
ignore that there's still much to be done.
    I continue to be particularly troubled by ongoing reports 
of ethnic violence, remaining political prisoners, suppression, 
mass arrests and raids on homes and monasteries.
    But after almost five decades of brutal military 
repression, hope and optimism remain alive in Burma. But the 
truth is for this hope and optimism to continue there are major 
challenges that Burma will need to overcome.
    I believe that the United States can aid in solving these 
challenges but as the world's greatest democracy we have to do 
more than just aid.
    We must also send a clear-cut message of what our values 
are and that the United States and its hope for success will 
not tolerate human rights abuses and oppression.
    As Burma transitions from instability to a country of 
democratic rule, this institution, Congress, and the 
administration must continually consider and review our 
actions.
    I look forward to hearing the testimony of each of the 
witnesses. I look forward to learning more about the status of 
where Burma is and hearing your thoughts and ideas about the 
policies that Congress and the administration should be 
thinking about and adopting in our hopes of creating a lasting 
and stable democracy in Burma.
    And again, Mr. Chairman, I'd like to thank you for calling 
this important hearing and, again, I look forward to the 
testimony of the witnesses.
    With that, I yield back.
    Mr. Chabot. Okay. Thank you.
    Mr. Andrews, as president and CEO of United to End 
Genocide, he also serves as senior advisor to the National 
Democratic Institute for International Affairs.
    A former congressman from Maine, Tom most recently served 
as national director of Win Without War, a coalition of 40 
national organizations promoting a national security strategy 
that calls for prudent use of military engagement. He's worked 
to promote democracy throughout the world, is an advocate of 
human rights in Burma, and has worked closely with the national 
coalition Government of the Union of Burma.
    In the early 90s, he served as general secretary of the 
Nobel Peace Laureate campaign for Aung San Suu Kyi. Tom was 
elected to the Maine House of Representatives in 1982, the 
Maine Senate in 1984, and the United States House of 
Representatives in 1990. We welcome you here, Tom.
    Our second witness will be Jennifer Quigley. Ms. Quigley is 
the executive director for the U.S. Campaign for Burma, where 
she works to ensure international policy makers support the 
movement for freedom and democracy in Burma, provide support 
for human rights and humanitarian needs and seek to bring an 
end to crimes against humanity and impunity in Burma.
    She has worked on the movement for freedom and justice in 
Burma in different capacities for 10 years now. Prior to 
joining the U.S. Campaign for Burma, she worked for the Women's 
League of Burma and its member organizations on international 
advocacy and capacity building. We welcome you here this 
afternoon.
    Next, Dr. Wakar Uddin is the director general of the Arakan 
Rohingya Union, chairman of the Burmese Rohingya Association of 
North America and a professor at Penn State University.
    He received his undergraduate degree from the University of 
Nevada and a Ph.D. from the University of Georgia. We welcome 
you here, Dr. Uddin.
    Finally, Ralph Cwerman, is president and chief executive 
officer, co-founder and board member of the Humpty Dumpty 
Institute, HDI, a private non-governmental organization 
dedicated to enhancing ties between the U.S. Congress and the 
United Nations. Under Mr. Cwerman's leadership, the institute 
has brought hundreds of Members of Congress and their senior 
staff to U.N. headquarters, including myself, for private 
briefings. Previously, Mr. Cwerman served as senior vice 
president of MUUS Asset Management Company, LLC, and senior 
vice president of the United Nations Association of the United 
States. Prior to that, Mr. Cwerman served as director of 
research and speechwriter to Ambassador Benjamin Netanyahu at 
Israel's permanent mission to the United Nations.
    He holds a bachelor's degree in Middle East studies from 
Tel Aviv University and a master's degree in international 
affairs from Columbia University.
    We want to thank the entire panel here this afternoon. I 
will remind you of our 5-minute rule. On the light system, the 
yellow light will let you know you have 1 minute to wrap up, 
and when the red light comes on, please wrap up your testimony. 
Each of you has 5 minutes. Congressman Andrews, you're 
recognized for 5 minutes.

 STATEMENT OF THE HONORABLE TOM ANDREWS, PRESIDENT, UNITED TO 
                          END GENOCIDE

    Mr. Andrews. Thank you so very much for holding this 
hearing. Thank you for your very comprehensive statement, Mr. 
Bera. Thank you for yours. Indeed, a humanitarian crisis is 
underway for millions and millions of people in Burma.
    And you covered much of the fundamentals. I'd just like to 
talk about my own personal experience travelling in Burma 
earlier this summer, Mr. Chairman.
    I went to Rakhine State in the west of Burma. I went to 
central and northern area of Mandalay. I visited Meiktila and I 
also visited many neighborhoods in the capital city of Rangoon.
    Throughout my travels I heard stories of violence, of 
systematic discrimination, of isolation and the blanket 
oppression where every aspect of life of so many of these 
people is tightly controlled by the military.
    People describe their life in terms of violence. Their 
right to move from one village to another, even from one street 
to another, the right to earn a living, the right to get 
married, the right to have more than two children, even the 
right to live with one's own family is dependent upon the 
permission of authorities and most often only after the payment 
of bribes.
    Large numbers of people are forced to live in these 
conditions, Mr. Chairman, not because of anything they have 
done but because of who they are and the god that they pray to.
    I found hate speech, a key precursor of genocide, is 
disturbingly prevalent in Burma. Fueling it is the systematic, 
well-organized and well-funded campaign of hatred and bigotry 
known as 969.
    It is ominously reminiscent of the hateful propaganda 
directed at the Tutsi population and their sympathizers in the 
lead-up and during the Rwanda genocide, and I describe this 
activity in my written testimony, Mr. Chairman, and there's a 
photograph I brought of one of these rallies to you.
    But let me just quote one of the most prominent leaders of 
this 969 movement. When he was asked about Muslims he said 
this, and I'm quoting, ``Muslims are like African carp. They 
breed quickly, they are very violent and they eat their own.'' 
That is a Buddhist monk who is a leader of the 969 movement.
    Mr. Chairman, the authorities in Burma do not want you to 
hear what I'm telling you this afternoon. After being blocked 
by security agents at a roadside checkpoint when I attempted to 
visit some of the neighborhoods and IDP camps I was finally 
able to get in, and here's what I wrote to some friends and 
colleagues from inside Burma.

          ``I'm travelling to parts of Burma that the 
        government does not want me to see. I now realize why. 
        Yesterday I saw burnt buildings and destroyed mosques, 
        met with those who had literally had to run for their 
        lives after watching their homes and everything that 
        they had worked for destroyed.
          ``They now live in abject poverty in makeshift camps, 
        wanting desperately to return and rebuild their village 
        but being utterly terrified to do so.
          ``Many told me yes, they are scared of the mobs and 
        the escalating anti-Muslim fearmongering and poison 
        that fuels that violence but they fear the Burma 
        security forces and police even more. I've been running 
        into plenty of these security forces. They have 
        stopped, harassed and followed me.
          ``Many intelligence agents have interrupted meetings 
        with courageous people who are willing to tell me their 
        story. Three of these agents followed me yesterday to a 
        meeting of an extraordinary Buddhist monk who had saved 
        hundreds of Muslims from a mob by providing them 
        shelter in his monastery. The agent sat in the back of 
        the monastery hall taking notes of our conversation.
          ``Later I was stopped and surrounded by several 
        security forces shortly after passing their compound. 
        They let me pass only after I showed them the photos in 
        my camera and trashed those that they did not want to 
        leave the country.
          ``Yesterday at what I thought was a secret meeting at 
        the home of a family of a village wracked by violence a 
        neighbor came by to warn us that military intelligence 
        agents were waiting across the street. I had four 
        agents following me for the reminder of the day.''

    These are some of the obstacles, Mr. Chairman, to learning 
and documenting the truth.
    This is the untold story of Burma, one that is not part of 
the sunny narratives that are so commonplace and it is one that 
desperately needs to be told.
    I want to congratulate you for giving us this opportunity 
to air the truth that is--that is happening as we speak inside 
of Burma and I provide in some detail my findings in my--in my 
written testimony.
    But by no means is this simply restricted to my own 
experience. The United Nations special rapporteur, Tomas 
Quintana, described in some detail his experience. He said, and 
I'm quoting, ``The severe restrictions on freedom of movement 
in Muslim IDP camps at Muslim villages remain in place.''
    He cited the impunity of security forces and the lack of 
any form of justice for the--for the Rohingya. I am 
desperately--I am deeply concerned as you are, Mr. Chairman, of 
the signals that we are sending as a nation.
    By the lifting of restrictions, of lifting the very sources 
of pressure that provided for the progress that we have seen in 
Burma, I believe this is a very dangerous course and should be 
reexamined and thoughtfully reviewed by this committee and by 
all.
    I am particularly concerned about the military-to-military 
relationships and the signals that this is--that it's sending 
to the Burmese military who are responsible for egregious human 
rights violations that continue even as we speak.
    It is very important, Mr. Chairman, that the American 
public and that this Congress see the complete story of Burma 
and that the policies that are in place right now be reexamined 
so that we are sending the right signals to the regime, the 
right signals to the military, and the right signals to those 
people in Burma who are living, as you described, this human--
this humanitarian crisis day in and day out.
    Thank you so much, Mr. Chairman.
    [The prepared statement of Mr. Andrews follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Chabot. Thank you very much, Mr. Andrews.
    Ms. Quigley, you're recognized for 5 minutes.

  STATEMENT OF MS. JENNIFER QUIGLEY, EXECUTIVE DIRECTOR, U.S. 
                       CAMPAIGN FOR BURMA

    Ms. Quigley. Thank you, Chairman, Ranking Member and 
members of the subcommittee. I'd like to thank you for the 
opportunity to speak today.
    It's been 2 years since Burma shifted from outright 
military rule to a nominally civilian government. During the 
first year, President Thein Sein surprised the international 
community with his willingness to engage and implement a series 
of reforms, culminating with Aung San Suu Kyi's by-election 
victory in April 2012.
    Many governments, including the Obama administration, 
responded quickly, rushing to lift sanctions. The human rights 
community and Burma's ethnic minorities were sceptical that the 
Burmese Government was interested in genuine reform.
    Rather, that they would do the minimal necessary to secure 
the removal of sanctions. We cautioned governments not to lift 
sanctions too soon, considering the constitutional barriers to 
democratic rule, national reconciliation, independence of the 
judiciary and civilian control over the military.
    Once governments began to lift or suspend their sanctions 
the pace of reform slowed dramatically. Primary focus was 
placed on securing economic benefits from foreign investment 
and trade.
    In rural and ethnic minority areas land confiscation became 
pandemic. Farmers and entire communities are being forced off 
of their land by government officials, the military or their 
business cronies in anticipation of lucrative foreign 
investment partnerships.
    The Burmese Parliament passed laws that legalized land 
confiscation, taking away people's ability to legally fight for 
their land.
    The Burmese authorities' desire to benefit from foreign 
investment has led to the breakdown of cease fires with ethnic 
minorities. The Burmese military broke the cease fire with the 
Shan State Army North in March 2013, attacking them, using 
villagers as forced labor and displacing thousands, all in an 
effort to clear out an area that the Burmese Government had 
signed a deal with a foreign company to build a hydro power 
dam.
    The Burmese Army continues to break cease fires, calling 
into question the sincerity of the Burmese Government's 
commitment to national reconciliation.
    Shortly following the euphoria of Aung San Suu Kyi 
officially becoming a member of Parliament, the human rights 
situation turned from bad to worse.
    Violence broke out between Rakhine Buddhists and Burmese 
security forces on one side and Rohingya Muslims on the other. 
In the course of a few days, the violence displaced 100,000 
people, the vast majority of whom are Rohingya Muslims who 
remain still today in squalid internally displaced person 
camps.
    Burmese authorities destroyed mosques, conducted mass 
arrests of Rohingya Muslims and blocked humanitarian aid to 
displaced.
    The violence against the Rohingya continue to be fueled by 
hate speech throughout Burma including by government officials.
    Alarmingly, many people throughout Burma including 
prominent members of Burma's democracy movement participated in 
the hate speech against the Rohingya and supported military 
authority in Rakhine State.
    On July 11th, 2012, President Thein Sein told the U.N. High 
Commissioner for Refugees that the only solution for the anti-
Muslim conflict is to deport Rohingya to other countries and 
confine them to refugee camps, reminiscent of Hitler's message 
in the 1930s.
    Later that same day, President Obama issued waivers lifting 
the financial and investment sanctions on Burma. The Obama 
administration's waiver sent a strong message--meeting human 
rights conditions and addressing concerns of ethnic minorities 
are no longer a requirement for receiving U.S. investment and 
relaxing sanctions.
    In September and early October 2012, the U.S. lifted 
restrictions on international and financial institutions' 
assistance to Burma and invited the Burmese military to observe 
the prestigious Cobra Gold joint military exercises.
    Seemingly emboldened by the international community's 
prioritization of Aung San Suu Kyi over anti-Muslim policies 
and human rights abuses, the Burmese Government ramped up 
restrictions on the Rohingya.
    In late October 2012, Burmese security forces carried out 
an ethnic cleansing campaign against the Rohingya Muslims, 
resulting in countless deaths, hundreds of women raped, the 
displacement of an additional 40,000 people and destroyed 
villages.
    The following month, President Obama waived the majority of 
the Burmese import ban and became the first President to visit 
Burma. With nearly all sanctions lifted and repercussions from 
the international community nil, the Burmese authorities ramped 
up their crackdown on activists and ethnic and religious 
minorities.
    Less than 2 weeks after President Obama visited Burma, 
police cracked down on nearly 100 protestors using white 
phosphorous, a chemical agent, to burn them. In December 2012 
and January 2013, the Burmese military escalated its attacks 
against the Kachin, for the first time launching air strikes 
and shelling.
    Shortly after that, the Paris Club of Creditors announced 
its attention to clear nearly $6 billion of Burmese debt.
    In addition to the lack of a robust response from the 
international community to allegations of ethnic cleansing and 
crimes against humanity, the Burmese Government's decades long 
promotion of Buddhist nationalism, anti-Muslim propaganda, 
divide and rule strategy and system of impunity created an 
environment that fostered anti-Muslim violence.
    Between February and August of this year, anti-Muslim 
violence spread throughout Burma with violence occurring in 23 
townships across the country.
    The participation and complacency of security forces during 
the attacks, coupled with a lack of justice and accountability 
for any authority figures involved in the attacks, strongly 
indicates the need for an international independent 
investigation into crimes against humanity and a system of 
impunity to determine who is responsible, the culpability of 
the government and access to judicial remedy.
    Without international action, anti-Muslim violence and 
discrimination will likely continue unabated. The United States 
must change the way it approaches Burma policy.
    During President Obama's trip to Burma last year, President 
Thein Sein made several promises of reform to address human 
rights issues. Nearly all of those promises remain unfulfilled.
    Clearly, the current approach is not working. U.S. 
Government policy should incorporate and reflect the needs of 
the most persecuted populations.
    The Burmese Government demonstrated that they relent to 
international demands before you relax sanctions, not after. It 
would be a mistake to continue to offer carrots without first 
demanding concrete reforms in advance.
    Military-to-military relations should not proceed until the 
Burmese military demonstrates a genuine interest in reform by 
stopping all attacks throughout the country in both cease fire 
and non-cease fire areas.
    Training junior officers and soldiers on human rights does 
not address the main problem, that soldiers are committing 
human rights abuses on the orders of their military and 
political leaders.
    The Burmese military wants a relationship with the U.S. 
military. Ethnic minority communities want the U.S. to use this 
interest as leverage to attain concrete genuine reform before 
allowing a relationship to move forward.
    Thank you.
    [The prepared statement of Ms. Quigley follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Chabot. Thank you very much.
    Dr. Uddin, you're recognized for 5 minutes.

 STATEMENT OF WAKAR UDDIN, PH.D., DIRECTOR GENERAL, THE ARAKAN 
                         ROHINGYA UNION

    Mr. Uddin. Thank you very much, Mr. Chairman, for giving me 
the opportunity----
    Mr. Chabot. Hit the mike here. Thank you.
    Mr. Uddin. Thank you very much, Mr. Chairman, for giving me 
the opportunity to testify before the Foreign Affairs Asia 
Subcommittee. I would like to start with the the post-election 
political situation in Burma the past 2 years.
    The political climate in Burma has not fundamentally 
improved for over the past 2 years, despite great expectations 
by the people of Burma and the international community for a 
genuine change.
    The junta's strategy of maintaining the status quo was 
effectively implemented through the national election in 2010. 
The impact of this false democratic process has 
disproportionately impacted the ethnic minorities including 
Rohingya, Kachin, and Myanmar Muslims over the Burmans and 
Bamma.
    The military juntas in position of its apartheid policies 
for Rohingya such as travel restrictions, marriage 
restrictions, land confiscation, deprivation of education, 
deprivation of freedom to worship, closure of places of worship 
is still continuing.
    In fact, there has been further tightening of these 
recently in Arakan/Rakhine state. Currently, there are some 
elements within the Burmese Government colluding with the 
Rakhine/Arakan state officials to make IDP--the internally 
displaced people--camps permanent or semi-permanent.
    The media is still not free for all people. Certain groups 
of people enjoy these rights more than others who has 
connection to the Burmese Government. Rakhine National
    Democratic Party--RNDP--in collusion with some segment of 
the Burmese Government as well as the Ministry of Immigration, 
has recently introduced legislation in the Parliament to launch 
a reinvestigation into Rohingya MPs and their ancestral 
backgrounds.
    These Rohingya MPs have been elected legally in the 
election in 2010. About U.S. administration's easing sanctions, 
I think the administration has moved very quickly to ease the 
sanction and relax the sanction.
    We believe that this is very shortsighted. The relaxation 
of the sanctions should have been more gradual, firmly 
incremental with benchmarks. The Burmese Government should meet 
each expectation by the international community before the 
second bar may be lifted.
    About military-to-military relations--the relationship with 
Burma, I am not a military strategist who can provide a 
detailed analysis of proposed military-to-military relations 
between Burma and the United States.
    However, as a concerned citizen knowledgeable enough about 
the Burmese military establishment, I strongly urge our 
Government to avoid military relations with a government that 
is guilty of the worst crimes of our time.
    Establishing this relationship is way far too premature, we 
believe. About the growing conflict between the majority 
Buddhist and the minorities, the conflict between Buddhist and 
Muslim populations are overwhelmingly one sided.
    Although this is termed as conflict, it is truly not a 
conflict. It is an attack on the minority by the majority. It 
is one sided.
    It's backed by the Burmese forces, as we have seen that on 
videos and on the Internet, on other news media coverage. 
Denial of basic rights, systematic discrimination against 
Rohingya by the Burmese Government created the fertile ground 
for nationalist Rakhine leadership and radical Buddhist monks 
to instigate fresh violence against Rohingya that has now 
spilled over to mainland Burma.
    About the implication of this conflict, the Burmanization 
policy, which is the purity--the ideology of purity of race and 
religion in Burma that has been there, the central part of this 
problem--situation in Burma, the violence against Rohingya and 
Burmese Muslims is part of a pattern of ultra nationalism led 
by the 969 movement and spearheaded by this monk.
    Monk Wirathu has--is spearheading that and Time Magazine 
has extensive coverage. So has other major newspapers of the 
world. This cannot be allowed. This Myanmar Government cannot 
remain silent on this.
    Myanmar Government must take--investigate this and stop 
this--the terror network--969 terror network--which is clearly 
committing all this violence and instigating violence through 
hate speech.
    Recently, the Burmese Government in coordination with the 
Rakhine State officials reportedly designated Rohingya 
prisoners as nonpolitical prisoners. In recent days, hundreds 
of Rohingya prisoners from eight, 11, 12 to 60, 65 quickly 
sentencing them to life imprisonment or long terms--20, 30 
years in jail for committing violence or instigating violence.
    In fact, these people are the victims of violence who has 
lost their homes, their business, some losing family members. 
Achieving national reconciliation with the ethnic group is not 
as complex as Myanmar Government has portrayed. It is simple.
    It is achievable. It is within the reach. Myanmar 
Government is very powerful. It has strong influence on Rakhine 
ethnic groups and Myanmar Government key a central role--a 
powerful role--can play a powerful role to mediate the 
reconciliation if it comes to the middle and play a central 
role as a true and sincere conciliator.
    Thank you very much.
    [The prepared statement of Mr. Uddin follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Chabot. Thank you, Doctor.
    Mr. Cwerman, you're recognized. Before you start, could I 
ask Dr. Uddin, what's the edition or what is the date on the 
Time Magazine that you referred to in case other people might 
like to know?
    Mr. Uddin. This is July 1st, 2013. It is a non-U.S. 
edition. It's an edition for Europe, Middle East, Asia and 
Africa.
    Mr. Chabot. Okay. Very good. It's July 1st of this year?
    Mr. Uddin. July 1st of 2013.
    Mr. Chabot. Okay. In case the staff want, to get it or any 
of the folks in the audience today. Thank you very much.
    Mr. Cwerman, you're recognized for 5 minutes.

STATEMENT OF MR. RALPH L. CWERMAN, PRESIDENT, THE HUMPTY DUMPTY 
                           INSTITUTE

    Mr. Cwerman. Chairman Chabot, Representative Bera, and 
members of the subcommittee, thank you for----
    Mr. Chabot. If you could hit the mike there just----
    Mr. Cwerman. Is that better?
    Mr. Chabot. Yes.
    Mr. Cwerman. Thank you very much for the opportunity to 
give testimony here today. As you mentioned, we do have a lot 
of interaction with Capitol Hill in our program with the U.N.
    But as the president and chief executive officer of the 
Humpty Dumpty Institute, we also do a lot of international 
development work around the world.
    Mr. Chabot. For those in the audience, the title is 
unusual. Would you explain where the title comes from? We won't 
take this out of your time.
    Mr. Cwerman. Sure. We were in the--I was with some 
colleagues in the back of a truck in Rwanda a few weeks after 
the genocide there and these were people who wanted to try to 
change things.
    And we were in the back thinking about how we could create 
an effective small organization that would do good work around 
the world and we all came up with the tag line of putting the 
pieces back together because things were so broken. And it is 
also a very memorable name. Lots of people forget--don't forget 
it.
    When there are 10,000 NGOs that are affiliated with the 
U.N. you have to try to find a way to keep people remembering 
what you're doing.
    Mr. Chabot. Thank you.
    Mr. Cwerman. As I mentioned, we have this program with the 
U.N. and Members of Congress but we also do a lot of 
development work around the world.
    We build schools, provide medicine, construct health 
clinics, feed children, clear land mines and UXO. We dig wells, 
we put up latrines, we plant gardens, we grow fruit orchards 
and we organize local business opportunities for indigenous 
populations.
    I'm here today because we do some work in Burma and I want 
to come to you with my perspective from boots on the ground, 
from the actual development work that we're doing there, from 
our unique partners with whom we work and with whom we've 
engaged and from the many, many people that I have talked to 
and run across during my travels throughout the entire country.
    My general impression is that most of the Burmese who I 
have talked to are absolutely extraordinarily thrilled by the 
speed and substance with which change and reform continues to 
take place in Burma.
    The Humpty Dumpty Institute was the first American NGO to 
begin a land mine program and a mine risk education program in 
Burma that was funded by the State Department.
    It is a huge problem in Burma. And also through this 
program we developed a very close and official relationship 
with one of the most important Buddhist organizations in the 
country.
    The name of that organization is the Sitagu Association 
under its very, very influential leader, the Venerable Sitagu 
Sayadaw. He has and his organization has provided humanitarian 
support to millions of people throughout Burma.
    They have a network of clinics and hospitals all over the 
country. He's raised hundreds of millions of dollars for 
disaster relief in Burma and his national food deliveries are 
very well known.
    The Sitagu Sayadaw's interfaith work is also very well 
known around the country and the region. For our program, we 
worked and partnered with the--this organization and we chose 
to work in Kachin.
    That, of course, is the province very troubled, bordering 
China with a Christian majority.
    It is the only state where there is current fighting taking 
place, resulting in the displacement of large numbers of people 
and the landmine problem there is huge and unchecked and 
actually very little is still known about it.
    Very little if any international support is reaching this 
area and our organization chose to start working there because 
the need there was the greatest.
    On my last trip to Burma, I spent an evening with Monsignor 
Francis Tang, the Roman Catholic bishop of Kachin, Sitagu 
Sayadaw and a few other people.
    We had a very, very interesting conversation about Burma 
and its future and this conversation continues to be a deep 
source of optimism for me.
    We were 15 kilometers away from the border of China. We 
could hear mortars falling as we were speaking. Despite these 
very, very dire circumstances, these religious leaders that I 
was meeting with are very enthusiastic and very excited about 
the future.
    They work with one another. They talk to each other 
constantly and believe that Burma is heading in the right 
direction. There are very, very serious bumps and bruises that 
are very painful along this path of reform.
    But the incredible progress made over the past 2 years has 
opened the doors to freedom and democracy for the people of 
Burma.
    It has infused the population with hope and optimism for a 
better life for themselves and for their children. This 
process, in my view, is irreversible and these religious 
leaders have come to rely on this country, the United States 
and you, to be strong partners and leaders to help guide their 
country along the path to democracy and rule of law.
    In terms of the sectarian violence between the Buddhist 
majority and the Muslim minority, the situation, as we have all 
heard, remains tense and serious. The vast majority of the 
victims here are Muslim.
    The displacement of these people and the violence directed 
toward them must be stopped. The perpetrators of this violence 
must be brought to justice and at the end of the day religious 
tolerance and the pursuit of interfaith cooperation must be a 
priority in Burma.
    There are Roman Catholics, Baptists, Mormons, Muslims and 
Hindus. Freedom of worship is guaranteed by law and in 
practice.
    In major cities, pagodas, churches, mosques, Hindu temples 
are often side by side. And for any of you who have been there, 
there is an actually wonderful synagogue that is functioning in 
Yangon.
    Many of Burma's religious leaders believe that the 
Buddhist-Muslim violence has been stirred up by a handful of 
Burma's 500,000 monks and that the overwhelming majority of 
monks support interfaith cooperation and want to see an end to 
this violence.
    U.S. assistant--USAID has a very robust program in Burma 
and is making a lot of headway. In the interests of time, I 
just want to end by saying that freedom--that religious 
tolerance, again, that there are many opportunities for efforts 
led by the State Department's Office of Religious Freedom to 
bring the different religious communities of Burma together in 
common cause to advance the nation's march to full freedom and 
democracy and the rule of law.
    Buddhist, Christian and Muslim communities should all 
benefit from working together to solve problems through 
stronger collaboration and cooperation.
    Thank you.
    [The prepared statement of Mr. Cwerman follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Chabot. Thank you very much. We'll go ahead and start 
questions. At this time, I'll recognize myself for 5 minutes.
    First of all, I want to thank all the witnesses for their 
testimony this afternoon. I thought all of them were really 
excellent. As I expressed in my opening statement, it's my 
belief that U.S. military engagement with Burma, at this time, 
is premature.
    There's no doubt that the Burmese military wants the U.S. 
to engage because it will bring them the legitimacy and 
prestige that most other countries have. I think most of you 
today, according to your testimony, shared that concern. 
Unfortunately, the administration seems to really have turned a 
blind eye to congressional concerns and has continually refused 
our invitations to testify before the subcommittee about its 
plans.
    Congressman Andrews, let me start with you first. You 
stated in your testimony that ``further relations between our 
militaries must be based on standards of conduct.'' I agree, 
and I believe benchmarks need to be established. Ms. Quigley, I 
know you mentioned benchmarks should be used as conditions 
before the U.S. continues engagement with the Burmese military. 
Could you describe what benchmarks you think should be 
established before the U.S. proceeds militarily with the 
Burmese?
    Mr. Andrews. Yes, Mr. Chairman.
    Let me just say, first of all, the impunity has to stop. 
Those who have committed these gross human rights violations, 
and they're very well documented, need to be held to account. 
There has to be an international investigation of these 
atrocities.
    The U.N. High Commissioner for Human Rights--the President 
of Burma promised our President that he would allow an office 
to be opened and permanently operating to investigate these 
atrocities. That still has not happened.
    So first of all, impunities. Secondly, civilians need to be 
in control of the military in Burma. That's not the way it is 
today.
    Aung San Suu Kyi, as you know, 2 years ago ran the table in 
the elections and her reward was to get 5 percent of the seats 
in the Parliament. The military, on the other hand, are 
guaranteed 25 percent of the seats in Parliament, an effective 
veto over whatever happens there.
    So civilian control needs to occur. The air strikes on 
civilian populations has to stop and those responsible for 
ordering those strikes need to be held accountable.
    I talked with someone 2 days ago who just returned from 
Kachin State and he says attacks on civilians, sexual violence, 
destruction of property by soldiers continues to go on to this 
very day.
    He said he had evidence. He saw it just the other day--use 
of child soldiers. Burma has pledged not to use child soldiers 
but they continue to recruit children as young as 12 years old 
into the military.
    This is not rocket science. There are fundamental codes of 
conduct that need to be established and it seems to me that if 
we're going to be engaging in military-to-military relations we 
should first establish these benchmarks based upon these 
factors.
    Let me just say, Mr. Chairman, that just last month was the 
first bilateral meeting of defense ministers in over 20 years 
when U.S. Secretary of Defense Chuck Hagel met with his 
counterpart in Burma on the sidelines of the ASEAN defense 
ministers meeting.
    These send dangerous signals. To have these atrocities 
going on, to have the military directly implicated in these 
atrocities and for us to be engaging in further and further 
military-to-military engagement without benchmarks I think is 
dangerous.
    Mr. Chabot. Okay. Thank you very much.
    Ms. Quigley, let me go to you next, if I can. The U.S. 
Ambassador to Burma said that during his last visit to Kachin 
State, people were approaching him, begging the U.S. to talk to 
the military, to work with them and thanking the U.S. for 
sending the Defense Institute of International Legal Studies 
teams to Burma.
    Now, you stated in your testimony that ethnic minority 
groups want the U.S. to use the military's interest in 
engagement as leverage to attain concrete genuine reform. At 
the same time, my understanding is that civil society and 
ethnic groups believe this type of engagement has come too 
soon. Would you explain why we're hearing these two competing 
messages and which one should guide U.S. policy?
    Ms. Quigley. Yes. We've been well aware that the 
administration has wanted to pursue military-to-military 
engagement for several months. This actually became a big focus 
of mine when I did my trip to Burma earlier this year.
    I also was in Kachin State. I was in Rangoon and I was on 
the Thai-Burma border and we made sure to ask everyone we met 
with what it was that they wanted, being well aware that some 
of them had already been approached by the U.S. Government.
    When the U.S. Government approached whether that be 
Ambassador Mitchell or somebody on a State Department 
delegation, the question that the communities are asked are 
would you like our military to train your military on human 
rights--you know, international humanitarian law and 
international human rights and people are, like, yeah, that'd 
be great, and there's no follow-up questions.
    Mr. Chabot. Yes.
    Ms. Quigley. When I ask, do you want the Burmese military 
to have done something first?, their response is, oh, of 
course. They just assumed that the U.S. would place a 
precondition on military-to-military engagement.
    We then got into conversations and it's an ongoing one now 
that we've had for several months is well, what do you want 
those preconditions to be. They've laid out across multi-ethnic 
groups, not just Kachin but Kachin, Karen, Shan, sort of you 
name it--the idea is they have to demonstrate they have an 
interest in reform by stopping the attacks.
    The Burmese military has done nothing so far to show that 
they are actually interested in reform. They feel as if that 
should be the most immediate of precursors to future 
engagement.
    They also want--and this one is a bit bigger--they want 
troop withdrawal. That is the biggest. It's why refugees don't 
want to return home.
    It's why IDPs won't return home. The Burmese Army is there, 
they don't want to be where the Burmese Army is. And so they 
feel as if the U.S. Government has that opportunity to use this 
leverage. In fact, they want this relationship to be used to 
get that.
    Then, of course, they have--that's just for human rights 
training. If you get onto the idea of any other: Attending 
Cobra Gold next year, other joint military trainings, they have 
a whole slew of preconditions that they want and we're working 
with them right now to present that to Congress and to present 
that to the administration.
    Mr. Chabot. Okay. Thank you very much. My time has expired.
    The gentleman from California, Mr. Bera, is recognized for 
5 minutes.
    Mr. Bera. Great. Thank you, Chairman Chabot.
    Congressman Andrews and Mr. Cwerman, both of you in your 
opening comments referenced Rwanda and also referenced 
genocide.
    Can you expand on that in terms of what you're seeing when 
you're in Burma and, you know, what that context is? And then 
also what we can do to certainly help avoid that because none 
of us wants to see another Rwanda take place.
    Mr. Andrews. Thank you, Mr. Bera. It's an excellent 
question.
    I was in Congress when the genocide of Rwanda was going on, 
and when I visited Rwanda I literally sat down as I was at one 
of the memorial centers where 250,000 people are buried and 
asked myself, my God, where was I when all this was going on--
where was I when the true warning signs and signals of a 
genocide were in place?
    It's very clear to me as president of United to End 
Genocide that the building blocks of genocide are being--are in 
place in Burma right now and the hate speech, the fear and 
intimidation, the isolation, the severe restrictions on people, 
the violence against people, the sending off of people to camps 
where they're totally isolated and totally controlled, all of 
this is a precursor to genocide and the building blocks of 
hate.
    And, you know, someone has described this as inter-ethnic 
violence. You know, I believe that it's much more than that.
    When you have the complicity documented by the United 
Nations, for example, and the special rapporteur--complicity of 
the state and the military in these acts then there's a very, 
very serious problem that needs to be addressed and no country 
in the world is better positioned to influence the situation 
than the United States.
    Everyone that I talk to when I mentioned this said 
unequivocally of all the nations in the world the United States 
is in the strongest position.
    Mr. Cwerman. Thank you. I--as the son of two Holocaust 
survivors and someone who has had extensive experience visiting 
different sites where genocide has occurred, I don't think that 
such a foundation is laid in Burma.
    I have not seen it. I have talked to many, many political 
leaders. I have talked to many religious leaders. Yes, there 
are human rights abuses.
    Yes, there is injustice going on. But you have to remember 
that this is--this process of democratic reform is only 2 years 
old and there are going to be, as I mentioned, lots of problems 
and lots of challenges that both the government will--that the 
government will have to face over the course of the next many, 
many years.
    And yes, there is--of course, our role as the United States 
to help guide them, help influence them onto all of the issues 
that and positions that have been talked about here. But I want 
to emphasize that this is not some national movement.
    There are many, many people who are Buddhist who are 
opposed to the violence. There are people who are opposed to 
many of the human rights abuses that--in other areas. But at 
the same time, the leaders of these communities are talking to 
one another.
    There have been a number of meetings since May between 
Muslim leaders and Buddhist leaders to bring an end to the 
violence and, certainly, there is a very close relationship 
between the leaders of Kachin and many prominent Buddhist 
leaders as well.
    Mr. Bera. Would you say that most of the violence is 
confined to the Buddhist community and the Muslim community or 
are you seeing it across all the ethnic minorities?
    Mr. Cwerman. No, there's conflict going on in Kachin along 
the Chinese border where government forces are fighting with 
the Kachin independent army and they--there is, I think though, 
much more to it than that.
    There are strategic areas. But they have come in with a 
much heavier engagement--the use of airplanes, for example. But 
at the end of the day, there is a lot of interaction between 
Kachin and the rest of Burma.
    Leaders are talking and there is, I believe, a reason to be 
hopeful and a reason to be optimistic.
    Mr. Bera. Because I'm going to run out of time I would 
just--the second part of the question is what should the United 
States Government do to address this and, you know, help--give 
Burma the best possibility and----
    Mr. Cwerman. Yes. Well, I believe somewhat differently than 
the rest of the panel. I believe that the relationship should 
be deepened.
    I think more investment in the country is necessary and 
that all sorts of entanglements and more relationship should be 
built on every level in development, in, of course, democracy 
reform because if we don't do it there's no one else who's 
going to do it and it's our role and obligation to do so.
    Mr. Bera. Great. Thank you.
    Mr. Chabot. Thank you very much.
    The gentleman from North Carolina, Mr. Holding, is 
recognized for 5 minutes, unless he'd like to defer to the 
gentleman----
    Mr. Holding. I'm going to----
    Mr. Chabot. Okay. We'll recognize the gentleman from 
California, Mr. Rohrabacher.
    Mr. Rohrabacher. Well, thank you very much.
    And Mr. Chairman, I'd like to express my appreciation to 
you for holding this hearing.
    Burma has for many years been very symbolic of the issues 
of freedom that are challenging civilization throughout the 
world.
    And shortly after I was elected to Congress the first time 
I ended up going into the jungles in Burma and meeting with the 
students who had just been involved with a revolt against the 
military junta that were--and they were being--chasing them 
through the jungles and mortaring their villages.
    These were unarmed groups of young people who were college 
students, basically. And since that time, they finally found 
refuge in the areas of the Karen and the Karenis and the border 
tribal peoples.
    And since then all these years, all these 25 years, there's 
been this ongoing murder of innocent people by the Government 
of Burma that made it a pariah of the nations of the world, of 
course, probably except of the Chinese who were using the 
Burmese junta as their puppets.
    They were indeed doing the bidding of the Chinese and have 
got to such a point that it was too much for even the Burmese 
military, and that's why I think they've started in the right 
direction.
    Although what we're hearing about today should be a warning 
to all of us who felt that things were beginning to go in the 
right direction--that they are not necessarily going to go in 
the right direction unless we continue to be engaged in a very 
positive way and forceful way.
    U.S. military engagement, Mr. Chairman--as you have stated, 
U.S. military engagement with the Burmese Government at this 
time because of what we've heard at this hearing today is 
clearly premature unless we are to be taken--unless it is to be 
taken as excusing the type of abuses that we have heard spoken 
about and detailed today.
    There should be no--especially there should be no military 
cooperation with the regime until the major atrocities being 
committed against the Muslim population ceases.
    Otherwise, it will be seen by the people who are committing 
the atrocities as a green light to go and murder innocent 
people and it will be seen by people throughout the world as 
hypocrisy on the part of the United States because of our ready 
willingness to condemn Muslims anytime they are committing such 
acts of violence and atrocities against other peoples.
    There has been ethnic cleansing over these years that I 
have been in Congress that's very easy to identify. Where did 
the word ethnic cleansing come from? It came from Christian 
Serbs exterminating communities of Muslims in the Balkans, 
intentionally doing that.
    We now have a Buddhist ethnic cleansing of Muslims in 
Burma, just as we have seen Hindu ethnic cleansing of Muslims 
in the Kashmir.
    None of this excuses any Muslim for killing any unarmed 
person anywhere in the world. But if we're going to reach out 
to the Islamic community on this planet and tell them that they 
are not meeting the standards of civilization by backing the 
radicals among their own religious faith who are committing 
horrible acts of terrorism against unarmed people throughout 
the world, we've got to make sure that when Muslims are the 
victims we stand up for them as well, and nowhere is that 
clearer than here in Burma. And let us note now about others, 
yes, the Muslims are being attacked.
    But from my sources of information the attacks, especially 
air attacks on the Karenis and the Karens and the other ethnic 
groups along the border, continues.
    And if they--if it is indeed then there's been reform and 
they're heading toward more freedom in Burma, well, then those 
air attacks should have ceased a long time ago. Any air attack 
on a portion of Burma by the Burmese military is an admission 
that the repression of peoples in Burma continues.
    We must be strong about it. I hope this hearing delivers 
that message, Mr. Chairman, to the Burmese military that we 
don't expect a big announcement and then we're going to walk 
away and let them have their way.
    No, they made a big announcement that they're changing 
direction. We must see a continued movement in the right 
direction and not continued atrocities and human rights abuses.
    Thank you very much, Mr. Chairman.
    Mr. Chabot. Thank you very much. We don't necessarily need 
a response. I don't think there was a question in there.
    The gentleman from North Carolina, Mr. Holding.
    Mr. Holding. Thank you, Mr. Chairman.
    Picking up on the role of the Burmese military, I mean, 
obviously it's ingrained into the rule of the country of Burma.
    We know that any future constitutional reform or elections 
are going to have to have the Burmese military on board, and 
the Burmese military is reported as one of the top militaries 
in the world in terms of size.
    But, you know, as far as to their exact budget and the 
spending on the Burmese military we don't know that. Now, while 
this lack of transparency is a big concern given Burma's 
neighbors, I think before the United States needs to--before we 
move any closer to military-to-military cooperation we need to 
ensure that the Burmese military does not have excessive ties 
with China and North Korea or those ties are severed.
    So which one of you on the panel could elaborate for us 
exactly what are the ties that the Burmese military has with 
the Chinese or North Korea?
    Ms. Quigley. We won't be able to undo the extensive ties 
between the Chinese and the Burmese military. They are linked 
both militarily through--they have been the largest weapons 
supplier, the largest arms dealer for the Burmese military for 
decades.
    They are also economic partners. The Burmese military owns 
very large economic holdings in Burma and that's predominantly 
who the Chinese do their business with, particularly in the 
extractives and the energy sector.
    And so untangling the military, political and economic 
relationship between the Burmese and Chinese is, I think, an 
unattainable goal.
    I think it's one that the U.S. is trying to slowly pull the 
Burmese away from the Chinese and I think that's one of the 
primary reasons of our engagement policy.
    I think that the U.S. feels as if there is a greater 
potential to remove them from a relationship with North Korea, 
which includes a transfer of weapons and technology--missile 
technology.
    And then there is concern potentially about a nuclear 
relationship. The Burmese Government did just sign the 
additional protocol and will be allowing IAEA into the country.
    And so there is some promise, I would say, on trying to at 
least ascertain the nuclear relationship between Burma and 
North Korea, and several shipments have been stopped. Weapons 
shipments have been stopped from North Korea to Burma.
    I think that that actually was the focus of Secretary 
Hagel's interaction with the Burmese defense minister was to 
try and more successfully pull them away from the North 
Koreans.
    Mr. Holding. So how--what are the ways or what ways are we 
using and what ways would you suggest for driving a wedge 
between the relationship between Burma and China?
    Ms. Quigley. Well, to be honest, I think that the first 
thing that the U.S., I think, is trying to achieve is to 
separate the Burmese military from economic activity.
    And so if you separate the Burmese military from economic 
activity you separate an economic relationship that they have 
with the Chinese. And so----
    Mr. Holding. So how do you do that?
    Ms. Quigley. Well, at the moment the U.S. has said that if 
you want to invest with--if the Burmese military and their 
economic holdings want to invest with the Americans, which they 
do, that they have to divest.
    The Burmese military has to go from being an economic power 
inside Burma to being a professional military in Burma.
    And so we're holding out sort of like I guess you'd 
consider it like we're dangling the carrot--that if they divest 
that they would have more of a relation--that the Burmese 
military would benefit more from a relationship with the United 
States. And so they're----
    Mr. Holding. On a military level if they divested their 
economic holdings and so forth that----
    Ms. Quigley. Yeah. One of the administration's criteria for 
the Burmese military to, say, be taken off our sanctions list 
is to divest their economic holdings and so that would be one 
way in which they would be able to pull them away from the 
Chinese because the military would then no----
    Mr. Holding. Is there anything that we're not doing that 
you would suggest would be a way to drive a wedge?
    Ms. Quigley. I think we should be more engaged when it 
comes to the ethnic negotiations that are taking place. The 
Chinese have a predominant role.
    So most of the fighting that's taking place is happening on 
the China border with the Shan, the Palaung and the Kachin, and 
the U.S. has resolutely stayed out of those negotiations 
whereas the Chinese have played a very active role.
    And I've--we have suggested that these communities have 
actually asked the U.S. to actively participate in the 
negotiation process to--so that therefore the Chinese don't 
have as much control as what happens in those regions in the 
country.
    Right now, that's primarily a relationship between the 
Burmese military, the Chinese and those ethnic groups. And so 
those ethnic groups have actually asked that the U.S. 
Government become a more active player in those negotiation 
processes as a counterbalance to sort of neutralize the role 
that the Chinese have in that region of the country.
    Mr. Holding. Thank you. Thank you, Mr. Chairman.
    Mr. Chabot. Thank you for your remarks. The gentleman's 
time has expired. Let me make a remark--a chairman's 
prerogative here.
    I think sometimes there's a tendency in this country--I may 
be seeing this under this administration. I don't want to be 
too harsh with them because you see it occasionally, I think, 
throughout history--where it's natural for an administration to 
do this. I think they look for foreign policy successes 
wherever they can find them and I think initially, with respect 
to Burma, it looked like this was going to be a tremendous 
success story. If it happens under your watch you get some 
credit for it, so I think there was perhaps a rush to put a 
happy face on Burma and be very optimistic about the outcome, 
do a lot of positive things, give them everything, and hope 
that everything would go well.
    Unfortunately, we've seen that there are still tremendous 
challenges in Burma in addressing human rights abuses. The 
military is still literally killing people, and so I think it's 
appropriate for us to reconsider our policy there and to move 
forward in a more cautious manner, making sure that our actions 
and our outreach will actually have a positive effect and not 
just reward bad behavior.
    I don't think, Dr. Uddin, we actually directed any 
questions to you, so I would give you this opportunity, if you 
would like, to perhaps comment on anything that you heard here 
this afternoon.
    Mr. Uddin. Thank you very much for giving me the 
opportunity again to make a statement.
    I want to emphasize on ethnic minority issues where I'm--
I've been working as an ARU director general the rights of the 
ethnic minorities, particularly the Rohingya issue.
    Currently, Ambassador Derek Mitchell has been working very 
diligently on this Rohingya issue, trying to work--find out the 
solution for these Rohingya people.
    So I think we should continue that path through State 
Department's effort working on this. But, you know, the biggest 
problem we are having right now with the Rohingya issue is what 
Myanmar Government--Burmese Government says from Naypyidaw is 
not consistent what's happening on the ground.
    The more conciliatory talk, sometimes very negotiable talks 
coming out of Naypyidaw. Each time that happens you see more 
violent--more violence on the ground in Arakan State.
    There seems to be a disconnect between what's happening on 
the ground and what's coming out of Naypyidaw. So in terms of 
the community led by the United States, the most powerful 
country in the world, you need to take a look at that.
    Where is the missing gap? What's happening? Is that signal 
coming from the Napyidaw to the forces on the ground to 
continue to commit this horrendous violence against Rohingya or 
they are a breakdown of law and order?
    So I think that's one thing--that's something that I want 
to ask our Government to pursue that the security of the 
Rohingya people are addressed by the Myanmar Government because 
this took place--Rakhine State is the place which the Myanmar 
Government governs.
    So there has to be law and order. It cannot be a lawless 
state in Burma where the Myanmar Government is governing that 
region.
    Thank you very much.
    Mr. Chabot. Thank you very much.
    I'd like to thank all the panel members this afternoon for 
their excellent testimony and responses to the questions.
    I think you do a very, very good job in a particularly 
important country in the world right now that really does need 
a lot of focus.
    I would ask unanimous consent that members have 5 days to 
supplement their comments or submit questions. If there's no 
further business to come before the subcommittee, we're 
adjourned.
    Thank you very much.
    [Whereupon, at 3:10 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


   <F-dash>\<Copyright><star>ab<pound>t <F-dash><func.-of><Register>\

  Material submitted for the record by the Honorable Steve Chabot, a 
   Representative in Congress from the State of Ohio, and chairman, 
                  Subcommittee on Asia and the Pacific

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
